                                                1/26/06



                        U.S. Department of Agriculture

                           Office of Inspector General
                                      Northeast Region




             Audit Report

Animal and Plant Health Inspection Service
       Oversight of Avian Influenza




                              Report No. 33099-11-Hy
                                           June 2006
                                                                                           1/26/06

                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




June 12, 2006

REPLY TO
ATTN OF:        33099-11-Hy

TO:             W. Ron DeHaven
                Administrator
                Animal and Plant Health Inspection Service

ATTN:           William J. Hudnall
                Deputy Administrator
                Marketing and Regulatory Programs – Business Services

FROM:           Robert W. Young /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        Oversight of Avian Influenza


This report presents the results of our audit of the Animal and Plant Health Inspection Service
Oversight of Avian Influenza. Your response to the official draft, dated June 1, 2006, is included
as exhibit B. Excerpts of your response and the Office of Inspector General’s position are
incorporated into the Findings and Recommendations section of the report. Based on your
response, we were able to reach management decision on the report’s eight recommendations.
Please follow your internal agency procedures for reporting final action to the Office of the Chief
Financial Officer.

Please note that Departmental Regulation 1720-1 requires final action to be completed within
12 months of management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Animal and Plant Health Inspection Service Oversight of Avian Influenza (Audit Report
No. 33099-11-Hy)

Results in Brief                    This report presents the results of the Office of Inspector General’s (OIG)
                                    audit of the Animal and Plant Health Inspection Service (APHIS) oversight of
                                    Avian Influenza (AI). We assessed the adequacy of APHIS’ procedures to
                                    identify the occurrence of AI in the United States and to limit the impact on
                                    the general public and poultry industry. We concluded that APHIS has made
                                    commendable progress in developing plans and establishing the networks
                                    necessary to prepare for, and respond to, outbreaks of AI. However, APHIS
                                    has not yet developed a comprehensive approach for surveillance and
                                    monitoring of AI in domestic poultry.

                                    APHIS relies on a variety of voluntary State and commercial programs to
                                    monitor and test domestic poultry and wild birds. Because these programs are
                                    voluntary and there is no mechanism for reporting activity to APHIS, it does
                                    not know the extent of surveillance activity in place; and APHIS is not
                                    gathering consistent data to enable it to draw conclusions, to permit the
                                    detection of changes in epidemiological parameters (e.g., subtype of AI or
                                    rate of prevalence), or to report incidents of AI in accordance with new
                                    international trade requirements.

                                    In response to the President’s National Strategy for Pandemic Influenza
                                    (Strategy), 1 APHIS has developed the National AI Preparedness and
                                    Response Plan (Response Plan) to address the threat of AI. Characterized by
                                    its authors as a “living document” and subject to revision, it establishes a
                                    comprehensive approach to the management of an outbreak of highly
                                    pathogenic AI (HPAI) on a large commercial poultry operation. It
                                    incorporates best practices and procedures from incident management
                                    disciplines—homeland security, emergency management, law enforcement,
                                    firefighting, public works, public health, responder and recovery worker
                                    health and safety, emergency medical services, and the private sector—and
                                    integrates them into a unified structure. It forms the basis for how the Federal
                                    Government coordinates with State, local, and Tribal Governments, and the
                                    private sector once an incident occurs.

                                    To date, APHIS’ resources have been primarily directed toward responding to
                                    a potential HPAI pandemic. APHIS is coordinating and establishing networks
                                    with other Federal, State, and private entities. The agency is working with
                                    Federal and State cooperators in developing strategies for monitoring



1
    National Strategy for Pandemic Influenza, Homeland Security Council, dated November 1, 2005.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                     i
                                      migratory birds, as well as working internationally to provide education,
                                      outreach, and technical assistance.

                                      Worldwide, there are many strains of the AI virus that can cause varying
                                      degrees of clinical illness in poultry. AI viruses can infect chickens, turkeys,
                                      pheasants, quail, ducks, geese, and guinea fowl, as well as a wide variety of
                                      other birds, including migratory waterfowl. This virus changes rapidly in
                                      nature by mixing its genetic components to form different virus subtypes. AI
                                      is caused by many slightly different viruses. There are 144 different
                                      characterizations of the AI virus based on two groups of proteins found on the
                                      surface of the virus. One group is composed of hemagglutinin proteins (H), of
                                      which there are 16 different types (H1-H16); the other group is composed of
                                      neuraminidase proteins (N), of which there are 9 different types (N1-N9).

                                      AI viruses can be further classified into low pathogenicity and high
                                      pathogenicity forms based on the severity of illness they cause in poultry.
                                      Most AI strains are classified as low pathogenic AI (LPAI) and cause mild or
                                      asymptomatic infections in birds. In contrast, HPAI causes a severe and
                                      extremely contagious illness and death among infected birds. Mortality rates
                                      for birds affected by an HPAI outbreak can be as high as 90 to 100 percent,
                                      and any surviving birds are usually in poor condition. While LPAI infections
                                      are typically mild, some low pathogenic subtypes–the H5 and H7 strains-have
                                      the capacity to mutate into highly pathogenic strains. These types of
                                      infections, as well as HPAI, are referred to as notifiable AI (NAI). 2 LPAI
                                      poses no known serious threat to human health. However, some strains of
                                      HPAI viruses can be infectious to people.

                                      APHIS officials stated that the agency had only recently received adequate
                                      funding and that its approach had been to bolster surveillance and control in
                                      the most important areas first while identifying additional surveillance needs.
                                      On December 12, 2005, we issued a management alert to APHIS which
                                      outlined concerns with current AI surveillance activities. In its response,
                                      APHIS described a number of initiatives planned and in-process to address
                                      our concerns. For example, the National Surveillance Unit is currently
                                      developing standards for the design of surveillance systems within Veterinary
                                      Services and plans to publish these standards in early 2006. Following these
                                      standards, a National AI Surveillance System (to include Federal and
                                      non-Federal surveillance components) will be designed as a component of
                                      comprehensive poultry disease surveillance. The project completion date is
                                      October 31, 2006.

                                      In regard to its Response Plan, APHIS needs to provide additional guidance
                                      on preparing for and responding to HPAI or NAI outbreaks in live bird
2
    Notifiable AI refers to the Terrestrial Animal Health Code requirements that require all member countries, including the United States, to report to the
    World Organization for Animal Health any infections of commercial poultry from influenza A viruses of the H5 and H7 subtypes as well as any AI
    subtypes meeting the established pathogenicity (mortality) standard.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                                            ii
                   markets or other “off–farm” environments, clarify actions that employees
                   should take in obtaining and administering necessary vaccines and anti-virals
                   in the event that a culling operation for HPAI occurs, and finalize interagency
                   coordination on the process and procedures for notifying owners of
                   susceptible animals of the current infectivity risks, and the necessary
                   protective actions they should take when an outbreak of AI occurs.

Recommendations
In Brief           In our management alert, we recommended that APHIS develop and
                   implement a comprehensive AI surveillance plan and perform and document
                   an analysis that identifies any gaps in sampling surveillance and assesses risk
                   as a basis for determining the need for additional sampling. In response,
                   APHIS provided a strategy for developing a comprehensive plan. APHIS
                   should update its response to include details of how the inventory of current
                   surveillance systems will be developed and revised timeframes for project
                   completion.

                   We recommend that APHIS revise the Response Plan to include detailed
                   instructions for (1) handling HPAI occurrences in live bird market systems
                   and other “off-farm” environments and (2) obtaining and administering
                   vaccines and anti-virals to people in the event of a culling operation. Also,
                   APHIS needs to coordinate with the Farm Service Agency and the States to
                   develop and formalize producer notification and action procedures when an
                   outbreak of AI occurs, to include identification of the roles and
                   responsibilities of personnel involved, specific timeframes for action, and
                   linkage to the Standard Operating Procedures set forth in the Response Plan.

Agency Response    APHIS agreed with the reports recommendations stating it believed the audit
                   presented an accurate and realistic picture of APHIS’ capabilities at the time
                   of the review. APHIS noted that the audit was performed prior to the receipt
                   AI supplemental funding allocated by Congress to APHIS in fiscal year 2006.
                   APHIS stated the supplemental funding is currently being used to enhance its
                   surveillance and diagnostics, preparedness, and response, and wild bird
                   surveillance programs. Additionally, a portion of this funding is also being
                   used to fund international efforts designed to help prevent the spread of HPAI
                   into the United States.

                   We have incorporated excerpts from APHIS’ response in the Findings and
                   Recommendations section of this report along with the OIG position. APHIS’
                   response is included as Exhibit B. We did not include the attachments APHIS
                   provided to its response because of the sensitive nature of the information and
                   size of the attachments.

OIG Position       We concur with the agency’s response and have reached management decision
                   for all eight recommendations within this report.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                  iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. Identifying AI .................................................................................................................... 6

        Finding 1             Developing a Comprehensive Surveillance Plan for Domestic Poultry ................. 7
                                 Recommendation 1 ........................................................................................ 10
                                 Recommendation 2 ........................................................................................ 10
        Finding 2             Documenting Resolution of Potential Instances of AI.......................................... 11
                                 Recommendation 3 ........................................................................................ 12

    Section 2. Responding to AI ............................................................................................................ 13

        Finding 3             Responding to AI in LBM, Botanicas, and “Off-Farm” Locations ...................... 13
                                  Recommendation 4 ........................................................................................ 16
        Finding 4             Protecting Personnel Involved in HPAI Control and Eradication......................... 16
                                  Recommendation 5 ........................................................................................ 17
        Finding 5             Informing the States, Media, and Industry............................................................ 18
                                  Recommendation 6 ........................................................................................ 19
                                  Recommendation 7 ........................................................................................ 19
                                  Recommendation 8 ........................................................................................ 19

Scope and Methodology........................................................................................................................ 21

Exhibit A – Agency Response to Management Alert......................................................................... 23

Exhibit B – Agency Response............................................................................................................... 27




USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                                   iv
Abbreviations Used in This Report


AHPA            Animal Health Protection Act
AI              Avian Influenza
APHIS           Animal and Plant Health Inspection Service
EMRS            Emergency Management Response System
FAD             Foreign Animal Disease
FSA             Farm Service Agency
HHS             Department of Health and Human Services
HPAI            Highly Pathogenic Avian Influenza
LBM             Live Bird Market(s)
LBMS            Live Bird Marketing System
LPAI            Low Pathogenic Avian Influenza
NAI             Notifiable Avian Influenza
NPIP            National Poultry Improvement Plan
NSU             National Surveillance Unit
NVSL            National Veterinary Services Laboratory
OIE             World Organization for Animal Health
OIG             Office of Inspector General
Response Plan   National Avian Influenza Preparedness and Response Plan
Secretary       Secretary of Agriculture
Strategy        National Strategy for Pandemic Influenza
USDA            U.S. Department of Agriculture
VS              Veterinary Services




USDA/OIG-AUDIT No. 33099-11-Hy                                            v
Background and Objectives
Background                           Avian Influenza (AI) is an infectious disease of birds caused by type A
                                     influenza viruses. All birds are thought to be susceptible to AI, though some
                                     species are more resistant to infection than others. Wild waterfowl,
                                     shorebirds, and gulls serve as a natural host and reservoir for AI viruses.

                                     AI viruses are classified in accordance with the specific combination of two
                                     protein groups (H and N) they carry. At present, 16 H type proteins have been
                                     recognized (H1-H16) and 9 N (N1-N9) types. The H protein can theoretically
                                     be partnered with any one of the N proteins. Thus, there are potentially nine
                                     different forms of each virus subtype (for example, the nine forms of subtype
                                     H5 would be notated as H5N1, H5N2, H5N3, etc., through H5N9).

                                     Influenza A viruses can also be divided on the basis of their pathogenicity
                                     (ability to cause disease). The very virulent viruses cause highly pathogenic
                                     AI (HPAI) with up to 100 percent rates of mortality in poultry. Other AI
                                     viruses cause low pathogenic AI (LPAI), a much milder disease. Clinical
                                     signs for LPAI are much less evident or even absent and mortality is much
                                     lower or nonexistent. Only viruses of the H5 and H7 subtypes are known to
                                     cause HPAI. However, not all H5 and H7 viruses are highly pathogenic.

                                     In recent years, concern about HPAI infection in humans has increased after
                                     the discovery that some of these viruses have acquired the capacity to infect
                                     humans. Since 2003, a number of Asian countries have reported outbreaks of
                                     HPAI (subtype H5N1) which has been responsible for either the death or
                                     destruction of millions of birds and caused at least 100 human deaths.
                                     Recently, HPAI (subtype H5N1) has been found in Africa and Europe.

                                     The widespread persistence of H5N1 in poultry poses risks to human health.
                                     The current pandemic threat stems from an unprecedented outbreak of AI in
                                     Asia and Europe, caused by the H5N1 strain of the influenza A virus. 3 There
                                     are two potential routes for human infection. The first route is direct infection,
                                     whereby the virus passes from poultry to humans, resulting in severe disease.
                                     A second route, of potentially greater concern, occurs if the virus changes
                                     (mutates) into a form that is highly infectious to humans and spreads easily
                                     from person to person. Currently, the virus has not mutated into a form that
                                     can be transmitted easily from human to human.

                                     Direct contact with infected poultry or objects contaminated by their feces is
                                     thought to be the main way humans are currently infected. At present, most
                                     human cases occur in areas where small poultry flocks exist. In many cases,
                                     the poultry roam free, sometimes entering living quarters or areas where

3
    National Strategy for Pandemic Influenza (Strategy), Homeland Security Council, dated November 1, 2005.

    USDA/OIG-AUDIT No. 33099-11-Hy                                                                                  1
                                    children play. As infected birds shed virus in their feces, the opportunities for
                                    exposure to infected feces or to a contaminated environment increase.

                                    The President of the United States has recognized the public health threat of
                                    AI. In November 2005, he issued the National Strategy for Pandemic
                                    Influenza (Strategy). 4 This document outlines a strategy for preparation,
                                    detection, and response to a pandemic. It recognizes roles for all segments of
                                    society, including Federal, State, local and Tribal Governments, private
                                    industry, international trade partners, and individual citizens.

                                    The United States is the world's largest producer and exporter of poultry meat
                                    and the second-largest egg producer. Total U.S. poultry production was
                                    valued at over $28.8 billion in 2004. Broiler production was valued at
                                    $20.4 billion, followed by eggs at $5.3 billion and turkeys at $3.1 billion.
                                    Also, the United States is the world's largest exporter of broilers and turkeys.
                                    In 2004, U.S. chicken exports were valued at $1.6 billion and turkey exports
                                    at $248 million. Any outbreak of HPAI, regardless of the strain, could have
                                    very serious economic and health impacts on the U.S. poultry industry. An
                                    HPAI outbreak could result in significant poultry production losses in
                                    affected areas due to quarantine and bird depopulation activities. It is possible
                                    that foreign trading partners would impose a ban on all U.S. exports of
                                    poultry and poultry products. In the past our foreign trading partners have
                                    occasionally imposed partial bans on U.S. exports when LPAI was identified.

                                    The World Organization for Animal Health (OIE) guidelines in the Terrestrial
                                    Animal Health Code are recognized by the World Trade Organization as
                                    international recommendations for animal disease control. The OIE has
                                    revised its Terrestrial Animal Health Code guidelines regarding AI. Effective
                                    January 1, 2006, the guidelines require all member countries, including the
                                    United States, to report to the OIE any infections of commercial poultry from
                                    influenza A viruses of the H5 and H7 subtypes as well as any AI subtypes
                                    meeting the established pathogenicity (mortality) standard. Infections meeting
                                    these definitions are referred to as notifiable AI (NAI).

                                    The Animal Health Protection Act (AHPA), Public Law 107-171, dated
                                    May 13, 2002, consolidated and revised the authority of the Secretary of
                                    Agriculture (Secretary) related to protection of animal health. The AHPA
                                    enables the Secretary to prevent, detect, control, and eradicate diseases and
                                    pests of animals, such as AI, in order to protect animal health, the health and
                                    welfare of people, economic interests of livestock and related industries, the
                                    environment, and interstate and foreign commerce in animals and other
                                    articles. The AHPA gives the Secretary a broad range of authorities to use in
                                    the event of an outbreak of AI in the United States and to prevent the
                                    introduction of such a disease into the United States. The Secretary is

4
    National Strategy for Pandemic Influenza, Homeland Security Council, dated November 1, 2005.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                      2
                   specifically authorized to carry out operations and measures to detect, control,
                   or eradicate any pest or disease of livestock, which includes poultry, and to
                   promulgate regulations and issue orders to carry out the AHPA. The Secretary
                   may also prohibit or restrict the importation, entry, or interstate movement of
                   any animal, article, or means of conveyance to prevent the introduction into or
                   dissemination within the United States of any pest or disease of livestock.
                   Under certain specified circumstances, the Secretary may declare an
                   extraordinary emergency to regulate intrastate activities or commerce. The
                   Secretary also has authority to cooperate with other Federal agencies, States
                   or political subdivisions of States, national or local Governments of foreign
                   countries, domestic or international organizations or associations, Indian
                   tribes and other persons to prevent, detect, control, or eradicate AI.

                   The Animal and Plant Health Inspection Service (APHIS) protects and
                   promotes agriculture in the United States by keeping agricultural pests and
                   diseases from entering the country, facilitating agricultural exports, and
                   ensuring science-based standards in agricultural trade. Within APHIS,
                   Veterinary Services (VS) protects and improves the health, quality, and
                   marketability of our nation’s animals and animal products by (1) preventing,
                   controlling, and/or eliminating animal diseases and (2) monitoring and
                   promoting animal health and productivity.

                   HPAI is considered to be a foreign animal disease (FAD), and subject to
                   certain types of APHIS monitoring and review. Historically, LPAI was
                   considered to be a responsibility of the States, and thus not subject to intense
                   APHIS attention.

                   Although a more comprehensive plan is being developed, APHIS notes that
                   current surveillance activities occur in four broad areas. These are the
                   National Poultry Improvement Plan (NPIP), the live bird marketing system
                   (LBMS), State and independent commercial sampling, and wild bird
                   surveillance. Additionally, APHIS has developed a backyard biosecurity
                   campaign that does not include a testing component but provides education
                   for owners of backyard flocks.

                   NPIP is a cooperative Federal-State-industry program for controlling certain
                   poultry diseases, including AI. The NPIP consists of a variety of programs
                   intended to prevent and control egg and hatchery disseminated poultry
                   diseases. Flocks are ruled “AI Clean” if a specified number of birds test
                   negative for AI over a specified period. Diagnostic testing is done by State
                   and industry laboratories; the National VS Laboratories (NVSL) in Ames,
                   Iowa, confirm positive results. Participation in the program is voluntary and
                   currently only applies to breeding flocks. APHIS has drafted regulations,
                   which will extend the program to broiler, turkey, and egg laying operations.
                   APHIS reports that many operations and flocks have already begun


USDA/OIG-AUDIT No. 33099-11-Hy                                                                    3
                   implementation of the regulations in advance of their issuance. While APHIS
                   does not have reliable information about the proportion of commercial poultry
                   that is monitored for AI under the NPIP, officials agree that a significant
                   segment of poultry operations is not covered, predominantly commercial
                   poultry operations that produce birds for domestic production and do not
                   export to foreign countries.

                   Live bird markets (LBM) are facilities that sell live poultry, which is often
                   slaughtered onsite. It is estimated that over 70 percent of the LBM in the
                   United States are located in major cities in the northeast. Other poultry
                   markets include poultry auctions and botanicas, which are shops that sell live
                   birds for ritual slaughter. The LBMS includes the markets, and their
                   production and distribution systems. APHIS, in consultation with State and
                   industry representatives, has developed uniform standards for the Prevention
                   and Control of H5 and H7 LPAI in the Live Bird Market System. The
                   standards include testing requirements for the production, distribution,
                   transportation, and retail segments of the LBMS. Adoption of the standards is
                   voluntary.

                   States and the commercial poultry industry perform some AI monitoring. For
                   example, a Texas poultry industry group established an effort for an active
                   serological surveillance for AI following the identification of H5N2 in a
                   single flock of broilers. Pennsylvania has established its own AI monitoring
                   program in cooperation with industry. North Carolina has AI monitoring
                   efforts beyond the requirements of NPIP, such as testing a portion of blood
                   samples submitted to State laboratories every month.

                   Wild birds, in particular certain species of waterfowl and shorebirds, are
                   natural reservoirs for AI. Migratory birds represent one potential route for the
                   spread of HPAI into the United States. The ability to effectively prevent or
                   limit the spread of HPAI into domestic poultry operations is greatly enhanced
                   by early detection. Based on a request by the Department of Homeland
                   Security, the U.S. Department of Agriculture (USDA) and the Department of
                   the Interior developed a coordinated plan for the early detection of HPAI in
                   wild birds. The surveillance activities will include a large increase in the
                   number of samples taken from live wild birds and hunter-taken birds. Initial
                   focus will be on the Alaska and Pacific flyways as these are the most likely
                   routes of introduction during the spring of 2006, when birds migrate back to
                   the United States from Asia.

                   For backyard activities, APHIS has developed a “Biosecurity for the Birds”
                   campaign. APHIS provides information regarding the risk and signs of
                   disease, encourages good biosecurity practices, and reporting of sickness.
                   This program does not include a testing component; it depends upon the
                   public to report to authorities the sickness or the death of birds.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                    4
Objectives         The objective of this audit was to assess the adequacy of APHIS’ activities to
                   identify the occurrence of AI and limit its impact upon the public health and
                   poultry industry.

                   To accomplish our objective, we performed fieldwork at APHIS
                   Headquarters, APHIS Regional offices, APHIS’ National Center for Animal
                   Health Surveillance, and five State Departments of Agriculture. We also
                   interviewed personnel and obtained data from APHIS’ NVSL.




USDA/OIG-AUDIT No. 33099-11-Hy                                                                  5
Findings and Recommendations
Section 1. Identifying AI

                                     APHIS has not yet developed a comprehensive approach to surveil and
                                     monitor for AI. APHIS relies on a variety of voluntary State and commercial
                                     programs to monitor and test domestic poultry and wild birds. If a State,
                                     producer, or private/referring veterinarian reports a suspect FAD (e.g., HPAI),
                                     APHIS guidance requires that a diagnostic specimen be sent to the NVSL in
                                     Ames, Iowa, and that an investigation be conducted. 5 The investigation and
                                     its resolution are to be recorded in the Emergency Management Response
                                     System (EMRS), a system that enables veterinarians, epidemiologists, and
                                     outbreak personnel to more quickly respond during an outbreak. APHIS has
                                     long-range plans to develop a comprehensive approach to poultry health
                                     surveillance, of which AI surveillance is one part.

                                     The emergence of HPAI as a potential pandemic has rapidly changed the
                                     environment in which APHIS operates. The issuance of the President’s
                                     Strategy on November 1, 2005, accelerated APHIS’ actions in dealing with
                                     AI. The President’s Strategy is based on the principles of (1) preparedness
                                     and communication, (2) surveillance and detection, and (3) response and
                                     containment.

                                     On December 12, 2005, the Office of Inspector General (OIG) issued a
                                     management alert which identified concerns with APHIS’ AI surveillance
                                     activities. OIG reported that APHIS does not have a comprehensive
                                     surveillance system; did not know the extent of surveillance activities in
                                     place; and was not gathering consistent data to enable it to draw conclusions,
                                     to permit the detection of changes in epidemiological parameters (e.g.,
                                     subtype of AI or rate of prevalence), or to report incidents of AI in accordance
                                     with new international requirements. 6 Further, APHIS was not updating
                                     EMRS to reflect resolution of avian disease investigations.

                                     Due to these developments, as well as increased domestic and international
                                     concern, APHIS expanded its efforts to address AI in all its forms. To date,
                                     APHIS resources have been primarily directed toward HPAI and developing a
                                     National AI Preparedness and Response Plan (Response Plan). APHIS is also
                                     coordinating and establishing networks with other Federal, State, and private
                                     entities and working with Federal and State cooperators on developing
                                     strategies for monitoring migratory birds, as well as working internationally
                                     to provide education, outreach, and technical assistance. Additional planned
                                     actions include enhancing surveillance efforts, obtaining more detailed

5
    VS Memorandum 580.4, Procedures for Investigating a Suspected FAD Emerging Disease Incident, March 30, 2004.
6
    Effective January 2006, the OIE expanded its requirements for reporting AI to include all commercial instances of H5/H7 regardless of pathogenicity
    (ability to cause disease).

    USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                                 6
                                       information about State surveillance and monitoring activity, aggregating and
                                       analyzing test results, developing a probability surveillance approach, 7 and
                                       expanding diagnostic laboratories’ network capabilities.

Finding 1                              Developing a Comprehensive Surveillance Plan for Domestic
                                       Poultry

                                       APHIS is in the early stages of developing a national AI surveillance program
                                       for domestic poultry. The agency defines surveillance as the systematic
                                       collection, collation, analysis, and interpretation of related events occurring in
                                       animal populations. This process is to be followed by timely dissemination of
                                       results to those involved in planning, implementing, and evaluating of
                                       prevention and control measures so that action may be taken. Monitoring is
                                       defined as the routine collection of information for a disease condition,
                                       characteristic, or state with the purpose of detecting changes in the
                                       epidemiological parameters affecting the population. 8

                                       Agency officials established a committee to develop a National Surveillance
                                       Plan for Poultry Diseases which initially met in January 2005. This committee
                                       confirmed the need for a plan to protect the public health, the poultry
                                       industry, and trade relations. The committee planned to evaluate current
                                       surveillance systems, identify surveillance gaps, and develop corrective
                                       actions. While the committee did not have a leader for much of 2005, and
                                       little progress was made during that time, a newly hired staff veterinarian has
                                       now been assigned as committee chairman and a followup meeting was held
                                       in January 2006. A review of existing AI surveillance and surveillance gaps
                                       was performed; however, the resulting analysis was limited in scope because
                                       aggregated data were not available to the reviewers. The analysis noted that
                                       concentrated efforts to integrate data and fill gaps are underway.

                                       APHIS officials note that the agency has recently begun developing
                                       comprehensive and integrated surveillance components. According to APHIS,
                                       the National Animal Health Surveillance System will be a comprehensive,
                                       coordinated, and integrated surveillance network of alliances and partnerships
                                       among multiple Government agencies and private entities. Its purposes will
                                       include protecting animal health, veterinary public health, and food security
                                       associated with animal populations. However, plans for this system are still
                                       under development and timelines for implementation and other
                                       documentation have yet to be established.

                                       We identified the following areas that should be considered as APHIS
                                       develops its comprehensive surveillance plan.


7
    Probability surveillance determines the probability of introduction based on risk analysis, pathway analysis, and threat analysis.
8
    APHIS VS webpage (http://aphis.usda.gov/vs/nahps/surveillance)

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                           7
                                    Determining how much United States poultry is not subject to
                                    surveillance or monitoring. To date, APHIS has not performed a
                                    documented risk assessment to identify the volume and distribution of poultry
                                    that is not addressed through one or more of the segments, to include the
                                    NPIP, 9 the LBMS, and commercial or State monitoring activities. Without
                                    this information, APHIS has reduced assurance that risks are being
                                    appropriately mitigated or that scarce dollars and resources are being targeted
                                    to the areas of greatest concern. The recent analysis of surveillance by APHIS
                                    cites the absence of data on “potential spatial…gaps” (the States or
                                    geographic areas where data is not available) and “potential temporal gaps,”
                                    (seasons or months when sampling may not occur).

                                    Collating and comprehensively analyzing the surveillance data that has
                                    been generated through AI testing. While there has been some analysis of
                                    various segments (e.g., State level and LBMS results), the data from the
                                    disparate sources has not been aggregated to allow APHIS to draw
                                    conclusions about AI in United States bird populations or to permit the
                                    detection of changes in epidemiological parameters (e.g., subtype of AI or
                                    rate of prevalence). Thus, it is difficult or impossible to reach valid
                                    conclusions based on the data. A senior APHIS official agreed that the AI
                                    surveillance data currently obtained does not support overall conclusions
                                    about the prevalence of AI or changes in epidemiological parameters. In
                                    response to our management alert, the Administrator acknowledged “the
                                    inability to aggregate and compile surveillance data for AI viruses…[which]
                                    inhibits the valuable flow of information to animal decision makers at all
                                    levels.”

                                    An APHIS survey of State agencies showed disparities in AI surveillance
                                    activities. For example, one State reported that it performed full diagnostic
                                    testing on eggs, broilers, and turkeys, while another limited tests to NPIP
                                    participants. Many States with a large poultry industry sector report major
                                    testing efforts. However, the extent of testing remains unclear, when
                                    considered on a nationwide basis, and APHIS officials have not collected
                                    comprehensive data on the topic.

                                    APHIS relies heavily on State participation in the NPIP for AI testing.
                                    State participation in the NPIP does not guarantee that large commercial
                                    breeders actually participate in this voluntary program. An official of a State
                                    with significant poultry operations informed us that 3 of 14 parent breeder
                                    flocks for meat-type chickens (comprising about 4.2 million or 10 percent of
                                    State hatching capacity) 10 did not participate in the AI component of the NPIP
                                    program nor did the State officials know whether these companies tested for
                                    AI at levels comparable to the NPIP provisions. For another major poultry
9
   NPIP is a voluntary program for testing poultry diseases in the breeding stock for commercial poultry growers, including egg and meat-type chickens,
   turkeys, and exhibition birds.
10
   Hatching capacity is defined as the number of eggs a facility can hatch at any given time.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                                       8
                   producing State, none of the seven parent breeder flocks for meat-type
                   chickens (hatching capacity of 11.6 million) participate in the AI component
                   of the NPIP program, instead relying on a State sponsored AI program.

                   Establishing a system to collect AI surveillance data at the National level.
                   Trading partners routinely ask for AI testing data. In response, APHIS
                   provides information about various surveillance efforts (NPIP, LBMS, and
                   State or industry surveillance). APHIS employees advised us of three
                   particular concerns expressed to them by trading partners during trade
                   negotiations. Specifically, trading partners did not understand why APHIS
                   could not (1) provide actual numbers by State, (2) advise whether all
                   commercial bird species are tested, or (3) advise whether backyard flocks are
                   tested.

                   Recent changes in OIE guidelines increase the urgency of the need for
                   comprehensive and reliable systems to sample for, and report on, AI.
                   Effective January 1, 2006, the Terrestrial Animal Health Code guidelines
                   require all member countries, including the United States, to report to the OIE
                   any infections of commercial poultry from influenza A viruses of the H5 and
                   H7 subtypes, as well as any AI subtypes meeting the established
                   pathogenicity standard. Based on our review, APHIS currently does not have
                   reasonable assurance that it can accurately or timely detect all the instances of
                   NAI. As a result all instances of NAI may not be reported to OIE as required.

                   AI surveillance in the United States is performed at different levels, including
                   activity by the poultry industry, the States, and APHIS. APHIS managers
                   have historically not considered the threat of LPAI to warrant the same types
                   of monitoring and surveillance as the diseases that traditionally represent
                   more of a threat to United States interests (e.g., bovine tuberculosis).
                   Resource constraints and competing priorities were cited as reasons that the
                   development of the surveillance plan for poultry diseases had been put on
                   hold. However, after we discussed the results of our review with agency
                   officials on October 21, 2005, agency management developed a timeline for
                   reviewing AI surveillance and identifying gaps in its surveillance efforts.

                   On December 12, 2005, we issued a management alert to APHIS which
                   outlined the issues identified in this finding. APHIS provided a written
                   response dated December 21, 2005 (see Exhibit A). In its response, APHIS
                   provided a tentative strategy and described a number of initiatives planned
                   and in process to address our concerns.

                   According to APHIS, the National Surveillance Unit (NSU) is developing
                   standards for the design of surveillance systems within VS and will publish
                   these standards in early 2006. Following these standards, a National AI
                   Surveillance System (to include Federal and non-Federal surveillance


USDA/OIG-AUDIT No. 33099-11-Hy                                                                     9
                   components) will be designed as a component of comprehensive poultry
                   disease surveillance. The project completion date is October 31, 2006.

                   Further, APHIS responded that the NSU maintains an inventory of current
                   surveillance system initiatives and programs throughout the United States,
                   including Federal and State level programs. The completeness of this
                   inventory will be reviewed and evaluated, and, where necessary, additional
                   poultry health surveillance components will be added.

Recommendation 1

                   Develop and implement a comprehensive AI surveillance plan to include
                   goals and objectives, case definitions, data collection and analysis
                   methodologies, reporting of surveillance results, and assessment of
                   surveillance program.

                   Agency Response.

                   APHIS agreed with this recommendation and is working to achieve this goal.
                   The NSU, which is part of APHIS’ VS division, is drafting an AI surveillance
                   plan that will include all of the components suggested in OIG’s
                   recommendation. APHIS intends to have a draft of this plan available by
                   June 30, 2006.

                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.

Recommendation 2

                   Perform and document an analysis identifying gaps in sampling surveillance,
                   and assessing risk as a basis for determining the need for additional sampling,
                   or documenting the basis for any decision not to sample a portion of the
                   population.

                   Agency Response.

                   APHIS agreed with this recommendation and stated it had recently conducted
                   a gap analysis to better understand remaining issues and what actions need to
                   occur. The agency provided documentation of gaps identified and actions
                   being performed to obtain additional information for data gaps.




USDA/OIG-AUDIT No. 33099-11-Hy                                                                 10
                                     OIG Position.

                                     We concur with the agency response for this recommendation and have
                                     reached management decision.


Finding 2                            Documenting Resolution of Potential Instances of AI

                                     APHIS did not always document in EMRS the resolution of potential
                                     instances of FAD when they were identified. APHIS personnel did not follow
                                     established procedures that require closure of investigations within a week of
                                     receiving final laboratory results, along with any "followup" information, that
                                     rules out a FAD. 11 At the time of our review, we identified 46 cases entered
                                     into EMRS where a potential diagnosis was avian FAD, and the investigation
                                     had not been recorded as completed. Forty-three of the unresolved cases were
                                     more than 6 months old, and 19 of the 43 cases had gone unresolved for more
                                     than a year. After we questioned the disposition of the aging cases, APHIS
                                     officials closed the cases, stating that the investigations had all been
                                     completed and closed appropriately throughout the year, but not entered into
                                     the EMRS until our inquiry.

                                     EMRS is a web-based task management system designed to automate many
                                     of the tasks routinely associated with the disease outbreaks and animal
                                     emergencies. It is used for routine reporting of FAD investigations,
                                     State-specific disease outbreaks or control programs, classic national animal
                                     health emergency responses, or natural disasters involving animals. EMRS
                                     enables veterinarians, epidemiologists, and outbreak personnel to more
                                     quickly respond to patterns during the outbreak and deliver high-resolution,
                                     high quality maps to decision makers, Government institutions, and the
                                     public. 12

                                     A typical example of a case unresolved in EMRS follows. An investigation of
                                     a high death rate of guinea hens in a backyard flock in Virginia was opened as
                                     an emergency program case on January 25, 2005. This investigation was
                                     closed on October 3, 2005, via data entry. Since the most probable diagnosis
                                     listed by the area emergency coordinator who initiated the case was either
                                     “Avian Influenza, High Path” or “Avian Influenza, Low Path,” and other
                                     potential diseases including Exotic Newcastle Disease and various domestic
                                     poultry diseases, it is significant that the case was open for more than
                                     8 months. It should be noted that we confirmed with NVSL that the samples
                                     submitted had been returned as negative for both AI and Exotic Newcastle
                                     Disease in January 2005. While the State employee who sampled the guinea
                                     hens knew that the sample was returned negative, users of EMRS would be
                                     led to believe that final laboratory results had not yet been returned. This is an
11
     VS Memorandum No. 580.4, Procedures for Investigating a Suspected FAD/Emerging Disease Incident, dated March 30, 2004.
12
     APHIS VS webpage (http://emrs.aphis.usda.gov/emrs_fact_sheet.pdf)

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                11
                   indication that EMRS was not being used routinely to identify cases where
                   laboratory results had not been returned, and thus was not functioning as an
                   effective internal control to ensure that all suspected cases were addressed
                   promptly. It is imperative that APHIS strengthen its reporting and tracking of
                   FADs to ensure that the agency will be able to act timely and effectively in
                   the event of an HPAI outbreak.

                   On December 12, 2005, we issued a management alert to APHIS that outlined
                   the issues identified in this finding. APHIS provided a written response dated
                   December 21, 2005 (see Exhibit A). In its response, APHIS noted that all
                   identified cases had been successfully resolved. The agency would focus on
                   better education of all EMRS users. Further, they agreed to strengthen quality
                   control by having regional offices regularly run and examine EMRS reports.
                   These actions, if implemented effectively, will address our concerns.

Recommendation 3

                   Review the EMRS database and ensure resolution of all cases where a
                   potential diagnosis of FAD has not been resolved within an appropriate period
                   of time.

                   Agency Response.

                   VS continues to follow VS Memo 580.4, dated March 30, 2004, in resolving
                   all potential FAD diagnoses within appropriate periods of time. The Western
                   and Eastern Regional Emergency Managers each have identified regional
                   epidemiologists responsible for reviewing all FAD investigations documented
                   in the EMRS FAD investigation database for their regions. This ensures
                   timely documentation of the resolution and closure of all the investigations
                   includes all potential incidents of HPAI.

                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.




USDA/OIG-AUDIT No. 33099-11-Hy                                                                12
Section 2. Responding to AI

                                         In response to the President’s Strategy, APHIS developed a Response Plan in
                                         January 2006. APHIS has made commendable progress in developing and
                                         documenting the policies and practices to be implemented in the event of an
                                         outbreak of HPAI on a large commercial poultry operation. However, we
                                         identified additional areas where the Response Plan can be strengthened as
                                         APHIS and its partners prepare to react when HPAI or NAI is identified.
                                         APHIS needs to provide additional guidance on preparing and responding to
                                         HPAI or NAI outbreaks in LBM or other “off–farm” environments, clarify
                                         actions that employees should take in obtaining and administering necessary
                                         vaccines and anti-virals in the event that a culling operation for HPAI occurs,
                                         and finalize interagency coordination on the process and procedures for
                                         notifying owners of susceptible animals of the current infectivity risks when
                                         an outbreak of AI occurs.

Finding 3                                Responding to AI in LBM, Botanicas, and “Off-Farm” Locations

                                         The Response Plan includes detailed operational guidance to be followed in
                                         the event that HPAI is identified on commercial poultry operations. However,
                                         the document lacks similar detailed guidance for dealing with HPAI in LBM,
                                         botanicas, 13 or other “off-farm” locations, such as those used for illegal
                                         gamecock fighting. According to APHIS officials, the Response Plan was
                                         assembled hastily and there was not adequate time to address all potential
                                         situations in which HPAI might be identified. Based on our discussion with
                                         APHIS officials, detailed instructions, similar to those developed for farms
                                         and large commercial operations, could help ensure a prompt and effective
                                         response if HPAI were identified in LBM, botanicas, or other locations where
                                         birds are bought and sold.

                                         According to APHIS, LPAI H5 and H7 have been shown to possess the
                                         potential to mutate into HPAI. Historically, the H5 and H7 subtypes of LPAI
                                         have been repeatedly identified in the LBMS in the United States. Nearly all
                                         (approximately 99 percent) of the instances where H5 or H7 AI virus was
                                         confirmed in the United States during the period September 2004 through
                                         June 2005 occurred in samples from LBM. AI has also been identified in
                                         other “off-farm” locations, such as botanicas. Given that LBM and botanicas
                                         are frequently located in large metropolitan areas, the methods that would be
                                         effective in dealing with an instance of HPAI at those locations would likely
                                         vary from the methods to be used in a farm or large commercial poultry
                                         operation.


13
     Botanicas, which primarily are located in southern Florida, sell live birds for ritual slaughter.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                       13
                   Cleaning and Disinfection. According to the Response Plan, cleaning and
                   disinfection are procedures used to impede the spread of pathogenic
                   microorganisms, to include HPAI. The Response Plan includes specific
                   guidance on cleaning poultry premises, to include breeder houses and broiler
                   houses, but does not provide details of how to ensure proper cleaning and
                   disinfection in a LBM. Based on our observations, cleaning and disinfecting a
                   LBM location could present special challenges due to the non-standard
                   nature of the containers in which the birds are kept (e.g., cardboard boxes and
                   gunny sacks) and the proximity of poultry from various vendors.

                   The Response Plan should be augmented to include guidance for cleaning and
                   disinfecting LBM and other non-traditional locations.




                   Pigeon, for sale at a livestock auction, is contained in a ‘disposable box’ that
                   has been made reusable.




USDA/OIG-AUDIT No. 33099-11-Hy                                                                  14
                   View of livestock auction – cages of ducks and chickens surrounded by
                   cardboard boxes containing live birds.

                   Quarantine and Movement Control. The Response Plan explains that, during
                   an outbreak of a highly contagious FAD such as HPAI, quarantine measures
                   are put into place to prevent or mitigate the spread of disease pathogens.
                   Movement control refers to activities regulating the movement of people,
                   animals, animal products, vehicles, and equipment. It also includes keeping
                   records on these movements as an important tool in the management of a
                   disease outbreak. While the Response Plan includes detailed information
                   about issues, such as declaring a premise to be infected and implementing a
                   permit system to allow movement, the Response Plan is geared toward a farm
                   or rural environment. It does not specifically address the unique challenges
                   that could occur if HPAI were identified in a LBM, to include the high level
                   of foot traffic, potential language difficulties due to the ethnicity of vendors
                   and customers, and the presence of other businesses in the zone of concern.
                   The Response Plan should be augmented to address the potential need for
                   movement control in a metropolitan area, such as at a LBM.

                   Euthanasia. According to the Response Plan, during an HPAI outbreak
                   euthanasia measures would be implemented to prevent or mitigate pathogen
                   spread. Both carbon dioxide and electrocution are cited as preferred methods
                   for large numbers of birds. However, the instructions for these methods do
                   not seem appropriate to an open urban setting, such as a LBM. Other methods
                   are mentioned, to include injectable euthanasia agents and cervical
                   dislocation, but they are noted to be appropriate only for very small numbers


USDA/OIG-AUDIT No. 33099-11-Hy                                                                  15
                                    of birds. The Response Plan should be augmented to address the potential
                                    need for euthanasia operations at a LBM or in another populated setting.

Recommendation 4

                                    Prepare and distribute detailed instructions for handling HPAI occurrences in
                                    LBM, botanicas, and other “off-farm” environments.

                                    Agency Response.

                                    APHIS is working with its partners in the LBM Working Group, which is
                                    comprised of State and industry representatives, to develop further response
                                    plans. These plans will address all aspects of response, including cleaning and
                                    disinfection, humane euthanasia, quarantine and movement control, and other
                                    response areas as needed. Although these efforts rely heavily on State
                                    participation, APHIS anticipates that response plans will be in place by
                                    December 31, 2006.

                                    On April 27, 2006, APHIS participated in a meeting with poultry industry
                                    representatives and a number of States. One outcome from this meeting was a
                                    sub-working group that will focus on response efforts in the event of a
                                    positive finding of AI. APHIS intends to work closely with this group to
                                    address gaps in our response plan and efforts. APHIS is well aware of the
                                    need to include non-commercial poultry stakeholders, such as LBMs or
                                    botanicas. APHIS’ next step includes the establishment of an agreement with
                                    the University of Minnesota to continue the work begun at the industry
                                    meeting. APHIS anticipates having this agreement in place by June 30, 2006.

                                    OIG Position.

                                    We concur with the agency response for this recommendation and have
                                    reached management decision.



Finding 4                           Protecting Personnel Involved in HPAI Control and Eradication

                                    According to APHIS VS Memorandum No. 580.18, 14 exposure to infected
                                    poultry, feces, respiratory secretions, and contact with contaminated surfaces
                                    are thought to result in transmission of HPAI virus to humans and subsequent
                                    infection; however, this is a rare occurrence. The Response Plan appropriately
                                    established guidance for protecting workers against HPAI. Requirements
                                    include receipt of the current season’s influenza vaccine (to reduce the
                                    possibility of dual infection with HPAI and human influenza) and a daily
14
     VS Memorandum No. 580.18, Policy to Ensure the Protection of Personnel Involved in Highly Pathogenic Avian Influenza Control and Eradication
     Activities, June 13, 2005.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                                                                16
                   prophylactic dose of an anti-viral drug. However, APHIS is still developing
                   its understanding of how to ensure worker safety, and the Response Plan does
                   not include details of how workers will obtain the vaccines and anti-virals,
                   where the vaccines are to be stored, how APHIS will get the medications to
                   the worksite, or a point of contact for additional information.

                   Based on our discussions with APHIS officials, it is anticipated that the
                   Department of Health and Human Services (HHS) will take responsibility for
                   providing, storing, and shipping the necessary vaccines and anti-virals in the
                   event that a culling operation for HPAI takes place. Given the detailed nature
                   of other information included in the Response Plan and the likelihood that
                   medications would be needed quickly, it would be appropriate to include
                   specific information about HHS involvement in the plan and points of
                   contact. Also, APHIS needs to provide detailed procedures for the use of
                   vaccines and anti-virals for workers involved in the culling, transporting, or
                   disposal of HPAI-infected poultry, or an explanation of how and where the
                   medicines will be obtained from HHS.

Recommendation 5

                   Develop and implement procedures for obtaining and administering the
                   necessary vaccines and anti-virals in the event that a culling operation for
                   HPAI occurs.

                   Agency Response.

                   APHIS is seeking collaboration/cooperation with the HHS to have APHIS
                   response personnel included in the Center for Disease Control and
                   Prevention’s Strategic National Stockpile response plans as “first responders.”
                   The APHIS Occupational Medical Monitoring Program is managed by the
                   Safety, Health, and Employee Wellness Branch, and is administered through
                   an interagency agreement with Federal Occupational Health, an agency of
                   HHS. Within this interagency agreement are provisions for prescribing and
                   distributing the anti-viral medication Tamiflu to APHIS employees as dictated
                   by accepted documentation of a potential or actual exposure to HPAI.

                   APHIS issued its own internal guidance on protecting employees involved in
                   AI activities. The guidance, APHIS Directive 6800.1, titled “Ensuring The
                   Protection of Employees Involved In Highly Pathogenic Avian Influenza
                   Control and Eradication Activities,” dated May 10, 2006, was recently issued
                   on May 16, 2006. On April 14, 2006, APHIS issued preliminary guidance to
                   potential first responders called the “Interim Personal Protective Equipment
                   Plan.” This provided field employees with the information they needed to
                   safely respond to HPAI. This guidance included information regarding
                   personal protective equipment, the use of anti-virals medications, and the
                   Agency’s plans to provide appropriate equipment in the event of an incident.
USDA/OIG-AUDIT No. 33099-11-Hy                                                                 17
                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.



Finding 5          Informing the States, Media, and Industry

                   The Response Plan is based on a response strategy with specific goals and
                   guidelines. The goals and guidelines are generally supplemented by
                   companion documents (also included as part of the Response Plan) that
                   provide specific operational direction. The goal to implement biosecurity
                   procedures within 24 hours of the identification of the index case references a
                   companion document, “Biosecurity.” While the overall companion document
                   includes valuable information for a response to an HPAI outbreak, it does not
                   include the detailed information necessary to implement the 24 hour
                   notification guideline established in the response strategy.

                   The APHIS response strategy provides for each State to set up a notification
                   procedure that informs owners of susceptible animals of the current risk of
                   being infected. Arrangements are to be made with the Farm Service Agency,
                   (FSA) which, according to the strategy, has mailing lists of all producers in
                   the county. However, we confirmed that FSA has not yet designated a person
                   or established a set plan or procedures. The agency understands that if an
                   HPAI outbreak occurs, arrangements will be made, but no work has been
                   done so far. Given the goal to implement biosecurity procedures within
                   24 hours of an indication of an index case, APHIS should establish
                   procedures before an outbreak occurs.

                   The “Biosecurity” document in the Response Plan does not identify the roles
                   and responsibilities of the personnel involved in the notification process,
                   specify timeframes for action, or link to the standard operating procedures as
                   set forth in the APHIS AI Response Plan.

                   APHIS should coordinate with FSA to develop and formalize producer
                   notification procedures, and the protective actions they should take, within
                   24 hours of the identification of the index case. Additionally, APHIS should
                   ensure that the notification process is clearly linked to the Standard Operating
                   Procedures set forth in the Response Plan.




USDA/OIG-AUDIT No. 33099-11-Hy                                                                  18
Recommendation 6

                   Coordinate with FSA to ensure the availability of updated mailing lists for use
                   in the event of HPAI outbreak.

                   Agency Response.

                   APHIS concurs with this recommendation, and agrees to collaborate with the
                   FSA to establish a mechanism to quickly obtain information on producers of
                   susceptible animals in the event of a HPAI outbreak, and to alert them to the
                   current risk of being infected. This notification will also give USDA the
                   opportunity to describe appropriate biosecurity procedures and standards. We
                   anticipate that this mechanism will be in place by the end of the calendar year.

                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.

Recommendation 7

                   Develop and distribute instructions for obtaining notification information
                   from FSA.

                   Agency Response.

                   We anticipate sharing this information with Area-Veterinarians-in-Charge,
                   and with Area Emergency Coordinators, once we have worked out the
                   procedures as outlined in Recommendation 6. Thus, in the event on an
                   outbreak, these individuals will be in the best position possible to work with a
                   designated Incident Commander as outlined in the National Animal Health
                   Emergency Management System guidelines and in accordance with the draft
                   HPAI Response Plan Summary published on May 2, 2006.

                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.

Recommendation 8

                   Augment the Response Plan with details of the notification process for States,
                   media, and industry, to include identification of the roles and responsibilities
                   of personnel involved, specific timeframes for action, and linkage to the
                   Standard Operating Procedures set forth in the AI Response Plan.

USDA/OIG-AUDIT No. 33099-11-Hy                                                                  19
                   Agency Response.

                   APHIS has refined the Interim HPAI Response Plan since the date of this
                   audit report. As part of the revision, dated April 28, 2006, APHIS has
                   included supplemental information in Appendix C that outlines in some detail
                   the process by which USDA will communicate with States, media, and others
                   regarding the establishment of an Incident Command System structure, and
                   Joint Information Centers. This information helps frame the roles and
                   responsibilities of State, local, and Federal entities.

                   As a result of the April 27, 2006, industry meeting, a specific working group
                   was established to deal with risk communication. APHIS will be continuing
                   to work with the University of Minnesota and poultry industry stakeholders to
                   refine AI-related information sharing, transparency, and processes. We
                   anticipate having an agreement in place with the University of Minnesota by
                   June 30, 2006.

                   OIG Position.

                   We concur with the agency response for this recommendation and have
                   reached management decision.




USDA/OIG-AUDIT No. 33099-11-Hy                                                               20
Scope and Methodology
                  Our review was performed to assess the adequacy of APHIS’ procedures to
                  identify the occurrence of AI in domestic poultry in the United States and to
                  limit the impact on the general public and poultry industry. Our review
                  covered APHIS initiatives to address AI in fiscal years 2005, and 2006, and
                  activity from prior years as needed.

                  To accomplish our audit objectives, we:

                  •   Interviewed APHIS officials at the APHIS Headquarters in Washington,
                      D.C., and Riverdale, Maryland, eastern and western regional offices, and
                      area offices in North Carolina, Pennsylvania, and New York.
                      Additionally, we interviewed an official of APHIS’ National Center for
                      Animal Health Surveillance in Fort Collins, Colorado, and interviewed
                      personnel of the APHIS’ NVSL in Ames, Iowa.

                  •   Reviewed AI background information, standards, and disease status
                      reports from other subject matter experts such as the World Health
                      Organization, the OIE, and the Agricultural Research Service.

                  •   Visited State Departments of Agriculture in North Carolina, Pennsylvania,
                      and New York, and contacted State officials in Wisconsin and Nebraska
                      by phone to obtain information on State AI surveillance operations, State
                      statutes, regulations, and policies. We judgmentally selected States and
                      respective area offices based on significant poultry production and LBM
                      activity.

                  •   Visited a live bird auction in Maryland.

                  •   Analyzed laws, policies and regulations and data obtained from APHIS
                      and the States regarding AI surveillance, testing, and outbreak responses.

                  •   Assessed industry, State, and APHIS actions when potential disease
                      occurrences were identified during AI testing.

                  •   Attended the LBM Working Group meeting.

                  •   Obtained and analyzed AI testing results from NVSL.

                  •   Analyzed APHIS Review of Existing AI Surveillance and Surveillance
                      Gaps.



USDA/OIG-AUDIT No. 33099-11-Hy                                                              21
                   Audit fieldwork was performed from April 2005 through March 2006. The
                   audit was conducted in accordance with Generally Accepted Government
                   Auditing Standards.




USDA/OIG-AUDIT No. 33099-11-Hy                                                        22
Exhibit A – Agency Response to Management Alert
                                                  Exhibit A - Page 1 of 4




USDA/OIG-AUDIT No. 33099-11-Hy                                      23
                                 Exhibit A - Page 2 of 4




USDA/OIG-AUDIT No. 33099-11-Hy                     24
                                 Exhibit A - Page 3 of 4




USDA/OIG-AUDIT No. 33099-11-Hy                     25
                                 Exhibit A - Page 4 of 4




USDA/OIG-AUDIT No. 33099-11-Hy                     26
Exhibit B – Agency Response
                                 Exhibit B - Page 1 of 5




USDA/OIG-AUDIT No. 33099-11-Hy                     27
                                 Exhibit B - Page 2 of 5




USDA/OIG-AUDIT No. 33099-11-Hy                     28
                                 Exhibit B - Page 3 of 5




USDA/OIG-AUDIT No. 33099-11-Hy                     29
                                 Exhibit B - Page 4 of 5




USDA/OIG-AUDIT No. 33099-11-Hy                     30
                                 Exhibit B - Page 5 of 5




USDA/OIG-AUDIT No. 33099-11-Hy                     31
